                    U.S. DEPARTMENT OF JUSTICE
                   ANNUAL FINANCIAL STATEMENT
                          FISCAL YEAR 2009

                   OFFICE OF THE INSPECTOR GENERAL
                      COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statement of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the Department’s
audit in accordance with U.S. generally accepted government auditing
standards. The audit resulted in an unqualified opinion on the FY 2009 financial
statements. An unqualified opinion means that the financial statements present
fairly, in all material respects, the financial position and the results of the
entity’s operations in conformity with U.S. generally accepted accounting
principles. For FY 2008, the Department also received an unqualified opinion on
its financial statements.

       KPMG LLP also issued reports on internal control and on compliance and
other matters. For FY 2009, the Independent Auditors’ Report on Internal
Control over Financial Reporting identified two significant deficiencies, both of
which were repeat issues. Weaknesses in the general controls over the financial
management system related to access controls and configuration management
were reported at two of the Department’s nine reporting components as a
significant deficiency. The Department’s other significant deficiency related to
several serious but isolated financial reporting issues, including the U.S.
Marshals Service’s funds management controls; the Assets Forfeiture Fund and
Seized Asset Deposit Fund’s seized and forfeited property reporting controls; the
Office of Justice Programs’ recording of budgetary upward and downward
adjustments; the Drug Enforcement Administration’s process for deobligation of
funds; the Federal Prisons Industries, Inc.’s inventory count controls; and the
Offices, Boards and Divisions’ process for considering economic factors in its
funding analysis of its earmarked funds. The chart at the end of our discussion
illustrates the FYs 2009 and 2008 financial statement results for the Department
and the nine reporting components.

        As reflected in the chart, the Department has continued to make progress
in its financial management systems and has continued to address major
weaknesses identified in the OIG’s previous annual financial statement audits.
For example, at the component level the number of significant deficiencies
decreased from 14 in FY 2008 to 8 in FY 2009. The Department and its
components deserve credit for these substantial improvements.


                                        i
      Yet, it is important to note that the Department still does not have a
unified financial management system to readily support ongoing accounting
operations and preparation of financial statements. As discussed in past years,
we believe the most important challenge facing the Department in its financial
management is to successfully implement an integrated financial management
system to replace the disparate and, in some cases, antiquated financial
systems used by Department components.

      In the FY 2009 consolidated Independent Auditors’ Report on Compliance
and Other Matters, the auditors identified no instances of significant non-
compliance with applicable laws and regulations. Although some instances of
non-compliance were reported at some of the components, the consolidated
auditors determined that none of the component level non-compliance issues
caused the Department as a whole to be in significant non-compliance.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Department’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the Department’s
financial management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 9, 2009, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in
all material respects, with generally accepted government auditing standards.




                                       ii
                           Comparison of FY 2009 and FY 2008 Audit Results
                      Auditors’               Number of Material                     Number of Significant
                     Opinion On                 Weaknesses1                              Deficiencies2
  Reporting           Financial                         Information                              Information
    Entity                                 Financial                                Financial
                     Statements                           Systems                                  Systems
                    2009      2008      2009       2008       2009     2008       2009      2008      2009        2008
Consolidated
                      U3         U         0         0            0       0         1         1          1          1
DOJ
OBDs                  U          U         0         0            0       0         1         1          0          0
AFF/SADF              U          U         0         0            0       0         1         3          0          1
FBI                   U          U         0         0            0       0         0         1          0          0
DEA                   U          U         0         0            0       0         1         0          0          0
OJP                   U          U         0         0            0       0         1         1          0          1
USMS                  U          U         1         1            0       0         0         1          1          1
BOP                   U          U         0         0            0       0         0         0          1          1
FPI                   U          U         0         0            0       0         1         0          0          1
ATF                   U          U         0         0            0       0         0         1          0          0
               Component Totals            1         1            0       0         5         8          2          5

 Consolidated Department of Justice (Consolidated DOJ); Offices, Boards and Divisions (OBDs); Assets
 Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF); Federal Bureau of Investigation (FBI); Drug
 Enforcement Administration (DEA); Office of Justice Programs (OJP); U.S. Marshals Service (USMS); Federal
 Bureau of Prisons (BOP); Federal Prisons Industries, Inc. (FPI); Bureau of Alcohol, Tobacco, Firearms and
 Explosives (ATF)
 1
   A material weakness is a significant deficiency (see below), or combination of deficiencies, that results in
 more than a reasonable possibility that a material misstatement of the financial statements will not be
 prevented or detected by the Department’s internal control on a timely basis.
 2
   A significant deficiency is a deficiency, or combination of deficiencies, that is less severe than a material
 weakness, yet important enough to merit attention by those charged with governance. A deficiency in internal
 control exists when the design or operation of a control does not allow management or employees, in the
 normal course of performing their assigned functions, to prevent or detect and correct misstatements on a
 timely basis.
 3
   Unqualified opinion – An auditor’s report that states the financial statements present fairly, in all material
 respects, the financial position and results of operations of the reporting entity, in conformity with generally
 accepted accounting principles.




                                                            iii
